 DOE/IG-0559




                                PRIVATIZATION OF SAFETY
                              MANAGEMENT SERVICES AT THE
          AUDIT                   SAVANNAH RIVER SITE
         REPORT




                                        JUNE 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                               June 18, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Privatization of Safety
                          Management Services at the Savannah River Site"

BACKGROUND

In January 1997, Westinghouse Savannah River Company, the management and operating
contractor at the Savannah River Site, submitted a privatization proposal requesting approval to
form a "spin-off" company to perform safety management services. The new company,
Westinghouse Safety Management Solutions, Incorporated (WSMS), would be a wholly owned
subsidiary of Westinghouse and would be largely comprised of Westinghouse personnel already
performing safety management services at the site. To justify the spin-off, the management and
operating contractor prepared a make-or-buy analysis indicating that by using WSMS the
Department would save at least $11.5 million over 5 years. The Department approved the
proposal and allowed Westinghouse to enter into a sole-source, cost-reimbursable agreement
with WSMS beginning in Fiscal Year 1998.

The objective of this audit was to determine whether the privatization of safety management
services at the Savannah River Site has reduced the Department's cost.

RESULTS OF AUDIT

Rather than reducing costs as expected, the privatization effort has actually increased the
Department's safety management operating costs by, on average, $2 million per year. We
found that the Westinghouse privatization proposal contained an inaccurate make-or-buy
analysis, that it was not thoroughly evaluated by responsible Federal managers, and that the
Department did not require competitive bids for the safety management services. In fact, we
were told that a desire to avoid layoffs, not reducing cost, was the primary factor in the decision
to approve the establishment of WSMS. As a result, from 1998 through 2001, the Department
incurred about $8 million in unnecessary costs. Based on the average annual cost for the last
three fiscal years, an additional $6.3 million in unnecessary costs could accrue during the
remainder of the contract, which extends through Fiscal Year 2006.

We recommended a series of specific actions intended to enhance the Savannah River
Operations Office's analyses and decision-making process with respect to its continuing
privatization initiatives.

MANAGEMENT REACTION

The Manager, Savannah River Operations Office did not agree with our conclusions that
privatizing safety management services increased the Department's costs. He stated that our
analysis did not include all relevant factors and that we relied on judgmental variables in
                                             -2-

estimating the cost of retaining the services in-house. The Manager also believed that the
creation of WSMS met its stated objective, preservation of technical capability for use by
Department sites. Management comments have been included in their entirety at Appendix 1.

Based on the Manager's concerns, we revisited our financial analysis and modified it to
include additional cost factors. In particular, we added back costs associated with certain
post-retirement benefits the Department could have accrued had Westinghouse (rather than
WSMS) continued to perform the safety management services. Even with those adjustments,
however, we found that the WSMS proposal would not have been the favored alternative from
a cost standpoint. In every reasonable scenario we analyzed, privatizing safety management
with WSMS was more costly than keeping the services with Westinghouse. A summary of
our comparative estimates is included as Appendix 2. Additionally, we concluded that the
Department had not demonstrated that technical capabilities provided by WSMS were so
unique as to justify the non-competitive process used to create the new venture.

Given the importance the Department has placed on safety issues, we respect efforts to retain
talented personnel with specialized safety expertise and experience. However, the
Westinghouse proposal was based, in large measure, on a commitment to reduce safety
management costs. Available documentation confirms, as well, that the Department regarded
cost savings as a factor influencing its decision to allow Westinghouse to enter into a sole
source subcontract with WSMS for such services. Based on the record to date, the WSMS
operation has not met the anticipated cost reduction objective.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science, and Environment
    Manager, Savannah River Operations Office
PRIVATIZATION OF SAFETY MANAGEMENT SERVICES AT THE
SAVANNAH RIVER SITE

TABLE OF
CONTENTS



                Overview

                Introduction and Objective .......................................................... 1

                Conclusions and Observations.................................................. 1


                Costs Were Not Reduced

                Details of Finding ....................................................................... 3

                Recommendations and Comments ........................................... 7


                Appendices

                Management Comments ............................................................ 9

                Comparison of Actual Cost ....................................................... 11

                Scope and Methodology ........................................................... 13
OVERVIEW

INTRODUCTION AND   The Department of Energy (Department) has encouraged the
OBJECTIVE          privatization of activities with commercial sources as a means to reduce
                   the cost of doing business and shift greater performance and financial
                   risk to the private sector. The Department's Contract Reform Team
                   issued a report in 1994, Making Contracting Work Better and Cost
                   Less, which recommended a decreased reliance on management and
                   operating (M&O) contractors to accomplish required activities. The
                   report also recommended that the Department improve its make-or-buy
                   decision-making process and explore more cost-effective contracting
                   strategies. The make-or-buy analysis helps to determine whether it is
                   more desirable to make a good or provide a service, rather than acquire
                   the good or service from outside sources.

                   In January 1997, Westinghouse Savannah River Company
                   (Westinghouse), the Department's M&O contractor at the Savannah
                   River Site, submitted a privatization proposal to the Department
                   requesting that it be allowed to form a spin-off company to perform
                   safety management services at the site. These services include
                   engineering and consulting in safety analysis and safety documentation,
                   as well as preparing health and safety plans and developing regulatory
                   positions. The new company, Westinghouse Safety Management
                   Solutions, Incorporated (WSMS), would be a wholly owned subsidiary
                   of Westinghouse largely comprised of Westinghouse personnel already
                   performing safety management services at the site. To justify the spin-
                   off of safety management services, Westinghouse prepared a make-or-
                   buy analysis that concluded the Department would realize a savings of
                   at least $11.5 million over 5 years by having WSMS perform the
                   services. The Department approved the proposal and allowed
                   Westinghouse to enter into a sole-source, cost-reimbursable agreement
                   with WSMS to perform safety management services at the site
                   beginning in Fiscal Year (FY) 1998. The current agreement is to have
                   WSMS continue to perform these services as long as Westinghouse is
                   the M&O contractor. The contract extends through FY 2006.

                   The objective of this audit was to determine whether the privatization of
                   safety management services at the Savannah River Site has reduced the
                   Department's cost.

                   Contrary to expectations, privatization of safety management services
CONCLUSIONS AND
                   with WSMS has cost the Department about $2 million more per year
OBSERVATIONS
                   than if the services had remained in-house. Westinghouse's
                   privatization proposal contained an inaccurate make-or-buy analysis
                   and the Department did not thoroughly evaluate the merit of the


Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         proposal. In addition, the Department did not require that the work be
         competitively bid to minimize costs. In fact, Department officials stated
         that cost was not a deciding factor in approving the establishment of
         WSMS. Rather, the decision was based primarily on a desire to avoid
         layoffs of safety management engineers. As a result, from FY 1998
         through FY 2001, the Department incurred about $8 million in
         unnecessary costs and based on the average annual cost for the last three
         fiscal years, could incur about $6.3 million in additional unnecessary
         costs during the remainder of the contract.

         Prior Office of Inspector General audits also identified problems
         concerning the Department's make-or-buy decision-making process. In
         our audit on Central Shops at Brookhaven National Laboratory
         (ER-B-00-01, May 2000), we determined that Brookhaven did not
         prepare a make-or-buy analysis for its Central Shops services and may
         have missed opportunities to reduce fabrication costs. Also, our report
         on The Department's Management and Operating Contractor Make-or-
         Buy Program (DOE/IG-0460, February 2000) noted that three of the
         four contractors reviewed had either not included all functions in their
         make-or-buy plans or had not scheduled cost-benefit analyses for many
         functions that were candidates for outsourcing. Finally, our audit of
         Architect and Engineering Costs at Los Alamos and Sandia National
         Laboratories (DOE/IG-0424, August 1998) disclosed that Los Alamos
         incurred higher costs for architect and engineering services, in part,
         because it did not use competition in selecting contractors for some
         projects.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                     (Signed)
                                              Office of Inspector General




Page 2                                          Conclusions and Observations
COSTS WERE NOT REDUCED

Cost of Safety        The privatization of safety management services at the Savannah River
Management Services   Site has resulted in increased safety management costs. We estimated
                      that the privatization of these services was costing the Department an
                      average of $2 million more per year with WSMS than if the services
                      had remained in-house with Westinghouse. As illustrated in the
                      following table, the average annual cost to the Department of having
                      WSMS perform safety management services, for FYs 1998 through
                      2001, was $22.9 million. We determined that the average annual cost
                      that the Department would have incurred had Westinghouse performed
                      the same services in-house with the same level of effort would have
                      been about $20.9 million.

                                        Comparison of WSMS Actual Costs to
                                         Westinghouse Reconstructed Costs

                                                      Fiscal Years
                                                                                  Annual
                                         1998      1999      2000        2001     Average
                                                 (Rounded in millions)

                      WSMS               $23.0     $21.6     $20.4       $26.7     $22.9
                      Westinghouse       $18.9     $19.9     $19.1       $25.9     $20.9
                      Cost Difference     $4.1      $1.6       $1.3       $0.8      $2.0


                      The cost difference was primarily attributable to WSMS having a
                      higher combined labor and overhead rate than Westinghouse. A
                      detailed comparison of WSMS actual costs to Westinghouse's
                      reconstructed costs for FYs 1998 through 2001 is in Appendix 2.

                      During our audit, we discussed our preliminary finding and the
                      methodology used to estimate Westinghouse costs with representatives
                      from the Savannah River Operations Office. At that time, management
                      did not take exception to the methodology used to reconstruct costs. In
                      a written response to our draft report, however, management disagreed
                      with our conclusion that privatizing safety management services had
                      increased the Department's costs. Specifically, management stated that
                      our analysis was not precise enough to be relied upon because it did not
                      include annual costs of about $300,000 in Post Retirement Benefits
                      Other Than Pensions (PRBOTP) and used judgmental variables in
                      estimating the cost of retaining safety management services in-house.
                      Management asserted that if the variables were reasonably adjusted, our
                      analysis would provide an essentially neutral reconstructed cost


Page 3                                                                     Details of Finding
                        comparison. In particular, management contended that the
                        productivity factors we used were higher than the former
                        Westinghouse Safety Analysis organization experienced.

                        Based on management's response, we revised our cost estimate to
                        include PRBOTP, which we estimated to be about $300,000
                        annually. However, including these costs still does not make WSMS
                        cost effective. Also, the Office of Inspector General disagrees with
                        management's assertion that using higher productivity factors would
                        have shown that contracting with WSMS was cost effective. The
                        values used in estimating the cost of retaining the services in-house
                        were either the costs actually expensed by Westinghouse or were
                        conservative values chosen from a range we considered reasonable.
                        In making our estimates we used actual Westinghouse productivity
                        factors. It should be noted that raising the productivity factor would
                        have caused Westinghouse's costs to be even lower.

Department Policy and   Department policy requires that privatization initiatives be supported
Westinghouse Contract   through make-or-buy analyses that establish a preference for
Requirements            providing goods or services on a least-cost basis. In addition to the
                        Contract Reform Team's recommendations, the Department's
                        Privatization Working Group issued a report in 1997, Harnessing the
                        Market: The Opportunities and Challenges of Privatization, with
                        similar recommendations. The working group concluded that
                        successful privatization depends on the Department's ability to move
                        from cost-reimbursement contracts with broad statements of work to
                        narrowly defined, fixed-price or incentive-based contracts that are
                        competitively awarded.

                        In addition, the Department's contract with Westinghouse requires
                        that privatization initiatives be supported through the development of
                        a make-or-buy program emphasizing efficient performance on a
                        least-cost basis. The contract also requires Westinghouse to
                        maximize the use of competition and fixed-price subcontracting to
                        reduce operating costs for the site.

                        In keeping with Department policy and contractual requirements,
                        Westinghouse established an internal policy to require that make-or-
                        buy analyses be performed to determine whether to provide specific
                        services in-house or to purchase the services from another contractor.




Page 4                                                                    Details of Finding
                             The analysis is to provide the Department with the most unbiased
                             selection of procurement or internal resources for performance of
                             services at the lowest estimated cost. When conducting cost
                             comparisons, Westinghouse is to ensure that all costs are considered
                             and that these costs are realistic and fair.

Westinghouse Analysis, the   Westinghouse's privatization proposal was based on an inaccurate
Department's Evaluation,     make-or-buy analysis that the Department did not thoroughly
and Competition              evaluate. In addition, the Department did not require that safety
                             management services be competitively bid to further minimize costs.

                                                      Proposal Analysis

                             The Westinghouse make-or-buy analysis contained unrealistic cost
                             data and omitted certain categories of cost from consideration. For
                             example, the analysis used inflated fringe benefit rates to estimate
                             the cost for keeping the services in-house. Westinghouse's average
                             annual fringe benefit rate for exempt employees was 22 percent from
                             FY 1994 through FY 1996 and 20 percent from FY 1997 through
                             FY 2001. However, the analysis used an average rate of about
                             31 percent. The Westinghouse manager responsible for the analysis
                             was unable to provide support for this percentage. This overstated
                             the cost of keeping the services in-house by about $1.2 million per
                             year. In addition, the analysis omitted costs of about $300,000 per
                             year for Westinghouse employees who provide oversight of the
                             WSMS subcontract. Including these two categories of cost would
                             have increased the relative cost of subcontracting the work to
                             WSMS.

                                                   Department Evaluation

                             The Department did not thoroughly evaluate the merit of the
                             Westinghouse proposal to ensure that privatizing safety management
                             services would actually reduce operating costs. In fact, the
                             Department's contracting officer stated that cost was not a deciding
                             factor in approving the establishment of WSMS. According to the
                             contracting officer, the decision to establish WSMS to perform
                             safety management services was based primarily on a desire to avoid
                             layoffs of safety management engineers at the site in order to
                             preserve a technical capability for use by other Department sites.
                             Also, the Department did not believe that a precise cost estimate
                             could be constructed for a newly formed company. Thus, from the
                             Department's perspective Westinghouse was not required to formally
                             correct the make-or-buy analysis that supported the decision to


Page 5                                                                        Details of Finding
         establish WSMS. In addition, management was not aware of the
         additional costs incurred after WSMS was established because the
         Department did not follow-up to evaluate the cost impact of its
         decision to privatize.

         In written comments on our draft report, management stated that it
         mandated inclusion of a provision in the agreement between
         Westinghouse and WSMS that would allow Westinghouse, at the
         Department's direction, to withdraw work from WSMS if it failed to
         perform in a cost-effective or technically proficient manner. Also,
         management stated that it has and will continue to monitor
         privatization activities and that it monitors the performance of
         WSMS and the costs paid to WSMS.

         During our review, we noted that the provision management cites
         was included in the agreement, but we also observed that the
         Department had only recently initiated an analysis of the
         reasonableness of WSMS costs. Monitoring efforts to date consisted
         only of ensuring that WSMS costs were consistent with the
         requirements set forth in the Annual Operating Plan and did not
         compare WSMS costs to what it might cost to acquire the services
         from another source.

                              Consideration of Competition

         The Department also did not require Westinghouse to solicit
         competitive bids for safety management services to ensure minimal
         operating costs. Instead, Westinghouse was allowed to enter into a
         sole-source, cost-reimbursable agreement with WSMS to perform
         these services. Prior to privatization, Westinghouse identified five
         competitors that could have performed similar services and may have
         competed for the contract. Competition would have been an
         effective way to ensure that the Government obtained the best value
         for its investment.

         Management stated that special expertise was being acquired in this
         procurement action through an affiliate transfer process and there
         was not a requirement for competition, nor for obtaining the services
         on a "least cost" basis. Nevertheless, according to management, both
         the structure of the Westinghouse contract and the agreement with
         WSMS clearly provide that the Savannah River Operations Office
         may promptly seek competition if management determines such
         action is appropriate. The agreement between Westinghouse and


Page 6                                                    Details of Finding
                    WSMS stipulates that the services will be purchased from WSMS
                    only if the technical quality is acceptable and the costs are
                    reasonable.

                    The Office of Inspector General recognizes that competition may not
                    be possible when purchasing a special expertise. However,
                    Westinghouse has acknowledged that other competent safety
                    management firms existed. In fact, WSMS currently subcontracts a
                    portion of its work to other firms. Furthermore, this expertise did not
                    need to be acquired because it already existed in-house. Although
                    management was performing a market analysis and evaluating the
                    reasonableness of WSMS costs, management has not indicated if it
                    would obtain competition if the results of the review support it.

Unnecessary Costs   From FY 1998 through FY 2001, the Department incurred
                    approximately $8 million more for safety management services by
                    using WSMS than it would have had the services remained in-house.
                    Additionally, based on the average annual cost for the last 3 fiscal
                    years, the Department could incur about $6.3 million in unnecessary
                    costs during the remaining 5 years of the contract.

                    Unless more is done to evaluate proposals submitted by
                    Westinghouse, future decisions regarding privatization at the site
                    may not ensure that the Department selects the least-cost alternative.
                    The Department is considering the privatization of two additional
                    services at the site in the near future—medical services, with annual
                    costs of about $4.8 million; and maintenance of administrative
                    facilities, including fire protection, with annual costs of about
                    $7.5 million. Decisions regarding privatization of these services
                    could have a significant impact on future costs.

 RECOMMENDATIONS    We recommend that the Manager, Savannah River Operations
                    Office:

                        1. Competitively acquire safety management services at the
                           Savannah River Site as soon as practical;

                        2. Require that Westinghouse prepare thorough and accurate
                           make-or-buy analyses for privatization initiatives;

                        3. Ensure that Westinghouse seeks competitive bids when
                           qualified bidders are available for future procurements
                           unless there is a compelling reason for using another
                           contracting method;

Page 7                                             Recommendations and Comments
                          4. Direct the Contracting Officer to thoroughly evaluate make-
                             or-buy analyses prepared by Westinghouse prior to selecting
                             least-cost alternatives; and,

                          5. Direct Operations Office personnel to perform follow-up
                             reviews of privatization initiatives to determine whether the
                             initiatives actually reduce overall costs, and initiate timely
                             corrective action when appropriate.

MANAGEMENT REACTION   Management agreed with recommendations 2 through 4 and has
                      initiated corrective action. Management partially concurred with the
                      first recommendation, indicating that under the Westinghouse
                      contract and WSMS agreement, the Department has the option to
                      seek competition for safety management services or to reduce fees if
                      costs for these services are deemed unreasonable. With regard to
                      recommendation 5, management again partially concurred, noting
                      that while the Department was, in fact, monitoring WSMS cost and
                      performance, not all privatization activities are implemented solely
                      to generate cost savings. Overall, management believed that the
                      creation of WSMS met its stated objective, preservation of a
                      technical capability for use by Department sites.

                      Management's verbatim comments are included as Appendix 1.

AUDITOR COMMENTS      Based on our audit, we concluded that WSMS was not providing
                      services so unique to justify a sole-source procurement, especially
                      when, by our estimate, the services now cost substantially more than
                      when they were provided by Westinghouse. As noted, management
                      disagrees with our assessment of the uniqueness of services and with
                      our cost estimate. In our judgment, the most logical way to resolve
                      these matters is for the Department to hold an open competition as
                      soon as practical. Only when such a competition occurs can the
                      Department be assured that its requirements for safety management
                      services at the site are being met in the most cost-effective manner.




Page 8                                               Recommendations and Comments
Appendix 1




Page 9       Management Comments
Appendix 1 (continued)




Page 10                  Management Comments
Appendix 2


                             Comparison of Actual Cost to Reconstructed Cost


                                                     Fiscal Years
                                                                                 1998-
                                                                                 2001        Annual
                              1997        1998     1999       2000       2001    Total       Average Notes

                                                      (Millions)
WSMS Actual Cost

 Direct Labor                               $8.2     $8.1         $8.4   $10.3       $35.0       $8.8   1
 Indirect Cost                              10.9      9.9         10.0    11.8        42.6       10.7   1
 WSRC Support                                0.3      0.3          0.3     0.4         1.2        0.3   2
 Subcontract Cost                            3.6      3.3          1.8     4.2        12.8        3.2   1

Total Cost                                 $23.0    $21.6        $20.4   $26.7       $91.7      $22.9




Westinghouse Cost for In– House Performance

                               Actual
                               Costs                        Reconstructed Estimate

 Direct Labor                  $10.2        $8.4     $9.2         $9.9   $12.4       $39.9      $10.0   3
 Indirect Labor                  2.7         2.2      2.3          2.3     2.8         9.6        2.4   4
 Benefits                        2.3         2.1      2.3          2.3     3.0         9.8        2.5   5
 Other Indirects                 2.7         2.2      2.4          2.5     3.2        10.3        2.6   6
 Subcontract Cost                1.8         3.6      3.3          1.8     4.2        12.8        3.2   1
 PRBOTP                                      0.3      0.3          0.3     0.3         1.2        0.3   8

Total Cost                     $19.7       $18.8    $19.9        $19.1   $25.9       $83.7      $20.9


Cost Difference                             $4.1     $1.6         $1.3    $0.8        $8.0       $2.0   7



(Figures in chart are rounded based on original calculations.)


Page 11                                                                          Comparison of Actual Cost
Appendix 2 (continued)

                                                   Notes:

     1.   These are the actual costs billed by WSMS from FYs 1998 through 2001.

     2.   We estimated the cost Westinghouse incurred to administer the WSMS contract based on the
          actual pay rates and time spent by some Westinghouse employees, and a percentage of time as
          estimated by other employees.

     3.   Direct labor was estimated assuming that Westinghouse would have worked the same number
          of hours as WSMS, and the ratio of exempt to non-exempt personnel would have been the same
          as in FY 1997. Also, we adjusted the salary estimates for non-exempt and exempt personnel
          using the actual general and merit-pay increases applied to the actual FY 1997 average salaries.

     4.   Indirect labor includes training, leave, and other labor not directly chargeable to a specific
          scope of work. These costs were calculated by using the average of the actual annual
          productivity rates of the three Westinghouse divisions with the most engineers at the site.

     5.   Benefits costs include Westinghouse's portion of Federal and state unemployment taxes, FICA,
          pensions, and life and health insurance. Westinghouse's exempt and non-exempt personnel
          have different benefits rates; therefore, their benefits costs were calculated separately and added
          together. The actual benefits rates for Westinghouse's exempt and non-exempt personnel were
          used.

     6.   Other indirect costs include items such as computer hardware and software, indirect support
          subcontracts, rents/leases, travel, division overhead, and facilities and utilities cost. The other-
          indirect-cost rate was derived by dividing the actual FY 1997 other indirect cost by the total
          labor and benefits cost. This rate was then applied to the total labor and benefits cost for each
          year.

     7.   Costs increased $8 million, or an average of $2 million per year, between FYs 1998 and 2001.
          The annual cost difference for FYs 1999 through 2001 may be a better indicator of future
          patterns because FY 1998 may have included some start-up costs. The average annual cost
          increase for these three fiscal years is $1.3 million.

     8.   Post Retirements Benefits Other Than Pensions (PRBOTP) are health, dental, and life insurance
          benefits that are provided to employees that retire from Westinghouse. These costs were added
          to the reconstructed cost estimate because they represent a future liability that would be
          incurred by Westinghouse if it continued to perform the services in-house. The estimated
          $300,000 annual cost is based on the FY 1997 present value PRBOTP obligation per a
          Westinghouse actuarial study.




Page 12                                                                         Comparison of Actual Cost
Appendix 3

SCOPE         The audit was performed from July 2, 2001, to February 7, 2002, at the
              Savannah River Site in Aiken, South Carolina. The audit covered the
              activities associated with the privatization of safety management
              services at the site from October 1997 through September 2001.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Evaluated Westinghouse's make-or-buy analysis prepared to
                      support the privatization of safety management services;

                  •   Compared the actual cost of safety management services after
                      WSMS was in place to an estimate of the cost had the services
                      remained in-house at Westinghouse;

                  •   Interviewed Savannah River Operations Office and
                      Westinghouse officials regarding privatization initiatives
                      pursued at the site from October 1995 through July 2001;

                  •   Reviewed Federal regulations regarding the make-or-buy
                      decision-making process and the competitive award of
                      contracts; and,

                  •   Evaluated the Department's and Westinghouse's policies and
                      contractual requirements concerning privatization initiatives.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. In addition,
              we reviewed the implementation of the Government Performance and
              Results Act of 1993 as it related to the privatization of safety
              management services. No specific performance measures were
              established for privatization efforts because privatization was not a
              recurrent activity. In performing this audit, we did not rely significantly
              on computer-generated data.

              We held an exit conference with representatives of the Savannah River
              Operations Office's Chief Financial Officer on May 17, 2002.




Page 13                                                     Scope and Methodology
                                                                              IG Report No.: DOE/IG-0559

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
